     Management Advisory Report



Single Audit of the Commonwealth
of Pennsylvania for the Fiscal Year
       Ended June 30, 2013




       A-77-14-00010 | June 2014
Single Audit of the Commonwealth of Pennsylvania for the
Fiscal Year Ended June 30, 2013
A-77-14-00010
June 2014                                                                Office of Audit Report Summary

Objective                                 Findings

To report internal control weaknesses,    The single audit reported payroll costs totaling $31,746 for one
noncompliance issues, and                 employee who worked on multiple L&I programs was
unallowable costs identified in the       inappropriately charged 100 percent to BDD. The inappropriate
single audit to the Social Security       charges occurred because the employee did not complete a
Administration (SSA) for resolution       timesheet and by default, the automated time system charged all of
action.                                   the employee’s time to BDD.

Background                                In addition, the single audit reported weaknesses in the cash
                                          management system that caused noncompliance with the Treasury-
The Pennsylvania Auditor General and      State Agreement.
KPMG LLP conducted the single audit
of the Commonwealth of                    Recommendations
Pennsylvania. SSA is responsible for
resolving single audit findings related   We recommend that SSA confirm that the $31,746 was
to its Disability programs. The           retroactively charged to the correct programs.
Department of Labor and Industry
(L&I) is the Pennsylvania Bureau of       The single audit identified multiple Federal programs, including
Disability Determination’s (BDD)          SSA, responsible for resolving the cash management finding.
parent agency.                            However, the Department of Health and Human Services plans to
                                          resolve this finding on the Government’s behalf. Therefore, we are
                                          bringing this matter to your attention, but we are not making a
                                          recommendation.
MEMORANDUM
Date:      June 11, 2014                                                        Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the Commonwealth of Pennsylvania for the Fiscal Year Ended June 30, 2013
           (A-77-14-00010)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           Commonwealth of Pennsylvania for the Fiscal Year ended June 30, 2013. 1 Our objective was to
           report internal control weaknesses, noncompliance issues, and unallowable costs identified in the
           single audit to SSA for resolution action.

           The Pennsylvania Auditor General and KPMG LLP performed the audit. The results of the desk
           review conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by the Pennsylvania Auditor General and
           KPMG LLP and the reviews performed by HHS. We conducted our review in accordance with
           the Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
           Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Pennsylvania Bureau of Disability Determination (BDD) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The BDD is
           reimbursed for 100 percent of allowable costs. The Department of Labor and Industry (L&I) is
           the Pennsylvania BDD’s parent agency.

           The single audit reported payroll costs totaling $31,746 for one employee who worked on
           multiple L&I programs was inappropriately charged 100 percent to BDD. The inappropriate



           1
            Commonwealth of Pennsylvania Single Audit Report for Fiscal Year Ended June 30, 2013
           http://www.portal.state.pa.us/portal/server.pt?open=512&objID=4574&&PageID=473561&mode=2 (last viewed
           May 16, 2014).
Page 2 - Gary S. Hatcher

charges occurred because the employee did not complete a timesheet and, by default, the
automated time system charged all of the employee’s time to BDD. 2 The corrective action plan
indicates the payroll costs were retroactively charged to the correct L&I programs, and a
quarterly email will be sent to employees to remind them to submit timesheets timely. We
recommend that SSA confirm that the $31,746 was retroactively charged to the correct
programs.

In addition, the single audit reported weaknesses in the cash management system that caused
noncompliance with the Treasury-State Agreement. 3 The single audit identified multiple Federal
programs, including SSA, responsible for resolving this finding. However, HHS plans to resolve
this finding on the Government’s behalf. Therefore, we are bringing this matter to your
attention, but we are not making a recommendation.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                             Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 13-SW-02.
3
    Id. at finding 13-SW-04.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
